Highlights
Table of Contents




                    Competition
                    Advocate
Findings
Recommendations




                    Audit Report
                    Report Number
                    SM-AR-14-008

                    August 14, 2014
Appendices




                                      Print
Highlights
Table of Contents




                    Highlights                         Background                                                           The Postal Service issued 1,182 noncompetitive contractual
                                                                                                                            actions, totaling about $523 million, from October 2012 through
                                                       The U.S. Postal Service established the competition advocate
                                                                                                                            December 2013. Of these, 74 (6 percent), totaling about
                                                       (advocate) on January 28, 2011. The advocate promotes
                                                                                                                            $417 million (80 percent), exceeded $1 million. Our objective
                                                       competition by helping contracting officials develop effective
                                                                                                                            was to evaluate the advocate’s impact in promoting contract
                                                       ways to obtain best value in contracting and issuing an annual
                                                                                                                            competition.
Findings




                                                       report on noncompetitive purchase activity. The advocate must
                        For 35 of the 74 contractual   review noncompetitive requests for contractual actions (steps
                                                       to create or modify a contract) greater than $1 million. The
                                                                                                                            What the OIG Found
                      actions, the advocate provided   advocate does not approve or deny noncompetitive purchases           We could not determine the advocate’s impact in promoting
                                                       but offers feedback to contracting officers (CO) on how to           contract competition because the Postal Service does not have
                      feedback on ways to increase
                                                       increase competition, including how to transition work to internal   metrics to measure advocate performance. For example, for
                       competition, but there are no   resources and research potential suppliers. COs are supposed         35 of the 74 contractual actions, the advocate provided
                                                       to consider this feedback when evaluating whether the                feedback on ways to increase competition, but there are no
Recommendations




                     metrics to determine the impact   Postal Service should compete a contract. The advocate does          metrics to determine the impact of this feedback. Without
                                                       not decide appeals by contractors.                                   such metrics, the Postal Service cannot accurately gauge the
                                 of this feedback.

                                                             The Postal Service
                                                             issued 1,182 noncompetitive   Competition
                                                             contractual actions              Advocate
                                                             totaling $522,801,089 from
                                                             October 2012 thru December 2013.

                                                              Slide your cursor over the pie charts
                                                              below to see how it breaks out
Appendices




                                                                                 $
                    Competition Advocate
                    Report Number SM-AR-14-008
                                                                                                                                                   Print                                  1
Highlights
Table of Contents




                                                 advocate’s success in promoting competition. In addition, the      What the OIG Recommended
                                                 advocate did not review requests for 12 of the 74 contractual
                                                                                                                    We recommended management develop metrics to gauge
                                                 actions, totaling about $40 million. This occurred because there
                                                                                                                    the impact of the advocate, reiterate the requirement to obtain
                                                 is no process to ensure that the advocate reviews all applicable
                                                                                                                    the advocate’s review of applicable requests, and establish
                                                 requests. These actions were awarded without an opportunity
                                                                                                                    a process to verify that the advocate reviewed all applicable
                                                 for the advocate to suggest ways to promote competition.
Findings




                                                                                                                    noncompetitive actions. We also recommended management
                                                 Further, COs did not document their consideration of the           clarify how COs should address the advocate’s feedback.
                                                 advocate’s comments on requests for two contractual actions,
                                                 totaling about $2.8 million. This occurred because
                                                 Postal Service policy does not explicitly state how the CO
                                                 should document responses to the advocate’s comments.
Recommendations
Appendices




                    Competition Advocate
                    Report Number SM-AR-14-008
                                                                                                                                           Print                                      2
Highlights
                    Transmittal Letter


                                                 August 14, 2014
Table of Contents




                                                 MEMORANDUM FOR:	           SUSAN M. BROWNELL
                                                 					                      VICE PRESIDENT, SUPPLY MANAGEMENT




                                                 					
                                                 FROM: 			 John E. Cihota
                                                 					     Deputy Assistant Inspector General
                                                 					      for Finance and Supply Management

                                                 SUBJECT: 			               Audit Report – Competition Advocate
                                                 					                      (Report Number SM-AR-14-008)
Findings




                                                 This report presents the results of our audit of the Competition Advocate (advocate).
                                                 Specifically, we conducted the audit to determine the impact of the advocate in
                                                 promoting contract competition (Project Number 14YG005SM000).

                                                 We appreciate the cooperation and courtesies provided by your staff. If you have any
                                                 questions or need additional information, please contact Keshia L. Trafton, director,
Recommendations




                                                 Supply Management and Facilities, or me at 703-248-2100.

                                                 Attachment

                                                 cc:	 Corporate Audit and Response Management
Appendices




                    Competition Advocate
                    Report Number SM-AR-14-008
                                                                                                                     Print               3
Highlights
                    Table of Contents
                                                 Cover
                                                 Highlights.......................................................................................................1
                                                  Background.................................................................................................1
                                                  What the OIG Found...................................................................................1
                                                  What the OIG Recommended.....................................................................2
Table of Contents




                                                 Transmittal Letter...........................................................................................3
                                                 Findings.........................................................................................................5
                                                  Introduction.................................................................................................5
                                                  Conclusion..................................................................................................5
                                                  Competition Advocate Role in Promoting Contract Competition................6
                                                  Advocate’s Role in the Noncompetitive Purchase Request Review ..........7
                                                    Competition Advocate Review .................................................................7
                                                    Consideration of the Competition Advocate’s Review..............................8
                                                 Recommendations........................................................................................9
Findings




                                                  Management’s Comments..........................................................................9
                                                  Evaluation of Management’s Comments..................................................10
                                                 Appendices.................................................................................................. 11
                                                  Appendix A: Additional Information...........................................................12
                                                    Background ...........................................................................................12
                                                    Objective, Scope, and Methodology.......................................................13
Recommendations




                                                    Prior Audit Coverage..............................................................................14
                                                  Appendix B: Management’s Comments....................................................15
                                                 Contact Information.....................................................................................17
Appendices




                    Competition Advocate
                    Report Number SM-AR-14-008
                                                                                                                                                         Print        4
Highlights
                    Findings                     Introduction
                                                 This report presents the results of our self-initiated audit of the Competition Advocate (advocate)
                                                 (Project Number 14YG005SM000). Our audit objective was to evaluate the impact of the advocate in promoting contract
                                                 competition. See Appendix A for additional information about this audit.

                                                 The U.S. Postal Service established the advocate on January 28, 2011. The advocate promotes competition by helping contracting
                                                 officials develop effective ways to obtain best value in contracting and issuing an annual report on noncompetitive purchase
                                                 activity. The advocate must also review noncompetitive purchase requests (NPR) for contractual actions1 exceeding $1 million.
Table of Contents




                                                 The advocate does not approve or deny noncompetitive purchases but offers feedback to contracting officers (CO) on how to
                                                 increase competition. The COs are supposed to consider these comments when evaluating whether the Postal Service should
                                                 compete a contract. The advocate is not responsible for deciding appeals by contractors.

                                                 The Postal Service issued 1,182 noncompetitive contractual actions totaling $522,801,089 from October 2012 through
                                                 December 2013. Of these, 74 (6 percent), totaling $416,835,371 (80 percent), exceeded $1 million.

                                                 Conclusion
                                                 We could not determine the advocate’s impact on contract competition because the Postal Service did not establish metrics to
                                                 measure the advocate’s performance. For example, the advocate provided COs with feedback on ways to increase competition for
                                                 35 of the 74 contractual actions, but there are no metrics to determine the impact of this feedback. Because there are no metrics,
                                                 the Postal Service cannot accurately gauge the success of the advocate in promoting contract competition.
Findings




                                                 We found the advocate did not review NPRs for 12 of 74 contractual actions as required. This occurred because there is no
                                                 process to ensure that the advocate reviews all applicable requests and some COs were not aware of the requirement. The
                                                 Postal Service awarded the 12 actions, totaling $39,940,970, without the advocate’s review. We also found COs did not document
                                                 their consideration of the advocate’s comments about NPRs for two contractual actions, totaling $2,751,075. This occurred
                                                 because Postal Service policy does not explicitly state how COs should document their responses to the advocate’s comments.
Recommendations




                                                 While we consider these amounts to be at risk, this does not necessarily indicate the Postal Service incurred losses.
Appendices




                                                 1	 Oral or written statement or step taken that forms or modifies a contract, which also includes delivery orders and options.
                    Competition Advocate
                    Report Number SM-AR-14-008
                                                                                                                                                                          Print   5
Highlights                                               Competition Advocate Role in Promoting Contract Competition
                                                         We could not determine the advocate’s impact on contract competition because the Postal Service has not developed metrics to
                                                         do so. The advocate promotes competition throughout the purchasing process and challenges barriers to competition by helping
                                                         contracting officials develop effective ways to obtain best value. The advocate also produces an annual report on noncompetitive
                                                         purchase activity,2 which provides visibility, tracking, and reporting on the number of noncompetitive purchases and whether there
                                                         has been an increase or decrease in these actions.3
                      The advocate developed tools
                                                         However, the number or value of noncompetitive contracts awarded is not an effective measure of the advocate’s impact. Budget,
Table of Contents




                          and processes for senior       purchasing needs, and other circumstances heavily influence the number and dollar amount of noncompetitive contracting
                                                         actions. This means that trends in noncompetitive contracting actions cannot be wholly attributed to the advocate. For example,
                       management and contracting
                                                         in fiscal year 2013, the Postal Service committed $1.4 billion of a 10-year competitive contract that it had previously awarded
                           officials that encourage      noncompetitively. This contract comprised 24.3 percent of all contract spending in 2013.4 We can attribute the 5 percent increase
                                                         in competitive contract spending in 2013 to management’s decision to compete that contract rather than to the advocate’s actions.5
                            competition, such as a
                                                         We found the advocate provided COs with feedback on ways to increase competition for 356 of the 74 contractual actions.
                      competition advocate website       This included developing a timeline or concrete plan to transition work to internal resources and conducting market research to
                    and a report identifying contracts   identify and evaluate potential suppliers in the marketplace. However, the advocate is not required to follow up on this feedback
                                                         to determine the outcome. The advocate developed tools and processes for senior management and contracting officials that
                     that will expire within 9 months.   encourage competition, such as an advocate website and a report identifying contracts that will expire within 9 months. However,
                                                         without metrics to gauge the advocate’s performance, the Postal Service cannot accurately determine the impact of the advocate
Findings




                                                         in improving the Postal Service’s competitive performance.
Recommendations
Appendices




                                                         2	   Supplying Principles and Practices, Section 2-10.3.4.a, General, dated January 28, 2011.
                                                         3	   The last annual report was released in Spring 2013.
                                                         4	   Competitive contracts represented $3,997,596,338 of $5,064,549,395 total spending in 2012; and $4,988,224,766 of $5,921,006,554 total spending in 2013.
                                                         5	   Management claimed 1 year of the 10-year contract in the annual report on noncompetitive purchase activity.
                                                         6	   The advocate offered suggestions for future competition for 24 NPRs, affecting 35 contractual actions. The advocate does not review delivery orders for indefinite-quantity
                                                              contracts or priced options.
                    Competition Advocate
                    Report Number SM-AR-14-008
                                                                                                                                                                                   Print                                                6
Highlights                                              Advocate’s Role in the Noncompetitive Purchase Request Review
                                                        The advocate did not review NPRs for 12 of the 74 contractual actions.7 In addition, because there is no formal process requiring
                                                        the COs to document their consideration of the advocate’s comments, they did not do so for two actions.

                                                        Competition Advocate Review
                                                        The advocate did not review NPRs for 12 of 74 contractual actions (16 percent), valued at $39,940,970, as required by policy.8
                        The advocate did not review     Specifically:
Table of Contents




                       NPRs for 12 of 74 contractual    ■■ A CO submitted an incomplete draft NPR to the advocate for guidance on completing sections of the NPR. The advocate
                      actions (16 percent), valued at      provided basic feedback but did not review a final draft with all sections completed. The CO did not submit a final version to the
                                                           advocate because he thought the draft was sufficient. The NPR was for an indefinite quantity base award contract with eight
                           $39,940,970, as required        delivery orders9 against it, valued at $18,721,774.

                                      by policy.        ■■ A CO did not submit NPRs to the advocate for review for two contracts. Officials could not explain why the former manager
                                                           approved the purchases without an advocate review. One option10 was exercised per contract, resulting in the award of four
                                                           total contractual actions valued at $21,219,196 without the required review.

                                                        There was no internal control or process in place, such as reconciliation between executed noncompetitive contractual actions and
                       There was no internal control    advocate reviews, to ensure the advocate received all NPRs for noncompetitive contractual actions over $1 million. As a result, the
                                                        Postal Service awarded these actions without the advocate’s review and input on potential strategies to promote competition.
Findings




                        or process in place, such as
                                                        Competition helps drive cost savings, enhance service or product quality, and promote innovative solutions. Further, competition
                    reconciliation between executed     promotes fairness and openness that lead to increased public trust in the Postal Service brand. Without a control to ensure the
                        noncompetitive contractual      advocate reviews all required contractual actions for opportunities to improve competition, there is increased risk the
                                                        Postal Service will not achieve best value in contracting. We claimed the $39,940,970 value of the 12 contractual actions as
                      actions and advocate reviews,     unsupported questioned costs because COs did not submit these NPRs to the advocate for review as required by policy.

                     to ensure the advocate received
Recommendations




                        all NPRs for noncompetitive
                           contractual actions over
                                      $1 million.
Appendices




                                                        7	 The advocate does not review delivery orders for indefinite-quantity contracts or priced options, so missing advocate reviews for the three noncompetitive awards affected
                                                            12 total actions.
                                                        8	 Management Instruction (MI) SP-S2-2011-1, Noncompetitive Purchase Request, dated February 7, 2011.
                                                        9	 An order from the Postal Service to a supplier to deliver products under an existing indefinite-delivery contract.
                                                        10	 A right to purchase property or require another to perform based on agreed-upon terms. An option is paid for as part of a contract but must be “exercised” in order for the
                                                            property to be purchased or the performance of the other party to be required. Gerald N. Hill and Kathleen T. Hill (2014, May 8), “Option.”
                    Competition Advocate
                    Report Number SM-AR-14-008
                                                                                                                                                                                 Print                                                7
Highlights                                              Consideration of the Competition Advocate’s Review
                                                        COs’ written evaluations did not address the advocate’s comments on NPRs for two of 74 contractual actions (3 percent).
                                                        Specifically:

                                                        ■■ For the first contractual action, the advocate advised the CO to work with the requesting program office to develop a strategy
                                                           for competing future purchases. The CO’s written evaluation did not address this suggestion or indicate planned strategies to
                       Current policy states that the      compete the next purchase.
Table of Contents




                      CO only needs to consider the     ■■ For the second contractual action, the advocate commented that the NPR did not include a detailed plan for future competition
                                                           and recommended the Postal Service use a pilot program while addressing market research and plans for future competition.
                     advocate's comments but does          The CO’s written evaluation did not address this suggestion.
                      not explicitly state how the CO   Current policy states that the CO only needs to consider the advocate’s comments11 but does not explicitly state how the CO
                      should address and document       should address and document his or her response or action. Though some COs addressed the advocate’s comments, there is little
                                                        consistency in the process across Supply Management.
                       his or her response or action.
                                                        Because there is no formal policy governing a CO’s evaluation of an advocate’s comments, there is an increased risk that COs
                                                        may not apply potential strategies for further competition to each purchase and may award contracts noncompetitively without full
                                                        consideration of opportunities. We claimed the $2,751,075 value of the two contractual actions as assets at risk because the COs
                                                        did not respond to the advocate’s comments.
Findings
Recommendations
Appendices




                                                        11	 Supplying Principles and Practices, Section 2-10.3.5, and MI SP-S2-2011-1.
                    Competition Advocate
                    Report Number SM-AR-14-008
                                                                                                                                                  Print                                     8
Highlights
                    Recommendations                   We recommend the vice president, Supply Management:

                                                      1.	 Develop measurable metrics to gauge the impact of the competition advocate in promoting contract competition.

                                                      2.	 Reiterate to contracting officers the requirement that they obtain the competition advocate’s independent review of applicable
                                                          noncompetitive purchase requests valued at $1 million or more.

                                                      3.	 Establish and implement a process for verifying that the competition advocate reviewed all applicable noncompetitive actions.
Table of Contents




                                                      4.	 Issue guidance to clarify how contracting officers should address and document the competition advocate’s comments on the
                       We recommend management            noncompetitive purchase requests.

                        develop measurable metrics
                                                      Management’s Comments
                         to gauge the impact of the   Supply Management generally agreed with the findings, recommendations, and monetary impact.
                           competition advocate in
                                                      Regarding recommendation 1, management will develop metrics to assess the advocate’s impact in promoting competition, by
                    promoting contract competition.   November 30, 2014.

                                                      Regarding recommendation 2, management will issue a Supply Management communication that reiterates existing policy
                                                      requiring the advocate to review NPRs valued at $1 million or more. The target implementation date is September 30, 2014.
Findings




                                                      Regarding recommendation 3, management will implement a semiannual process to compare a report of noncompetitive
                                                      contracting actions greater than $1 million with a report of noncompetitive contracts reviewed by the advocate. Managers within
                                                      Supply Management will review the reports and require COs to address any data integrity discrepancies or non-submissions. The
                                                      target implementation date is March 31, 2015.

                                                      Regarding recommendation 4, management agreed to review the current policies and procedures to determine if changes are
                                                      necessary and provide guidance to COs. The target implementation date is March 31, 2015. See Appendix B for management’s
Recommendations




                                                      comments, in their entirety.
Appendices




                    Competition Advocate
                    Report Number SM-AR-14-008
                                                                                                                                                 Print                                     9
Highlights                                       Evaluation of Management’s Comments
                                                 The U.S. Postal Service Office of Inspector General (OIG) considers management’s comments responsive to recommendations
                                                 1, 2, and 3 and corrective actions should resolve the corresponding issues identified in the report. However, regarding
                                                 recommendation 4, the OIG does not consider management’s proposed action to be responsive to the recommendation.
                                                 Management stated that they would review the current policies to determine if changes are necessary regarding how COs should
                                                 address and document the advocate’s comments on NPRs. Therefore, guidance to clarify policy will only be issued if management
                                                 determines that clarification is needed. The OIG believes that, given the vagueness of the current policy on COs’ evaluations,
                                                 clearer guidance is needed.
Table of Contents




                                                 Regarding recommendation 3, we want to clarify that the advocates semiannual review should compare a report of noncompetitive
                                                 contracting actions greater than $1 million with a report of NPRs reviewed by the advocate.

                                                 The OIG considers all the recommendations significant, and therefore requires OIG concurrence before closure. Consequently,
                                                 the OIG requests written confirmation when corrective actions are completed. These recommendations should not be closed in the
                                                 Postal Service’s follow-up tracking system until the OIG provides written confirmation that the recommendations can be closed.
Findings
Recommendations
Appendices




                    Competition Advocate
                    Report Number SM-AR-14-008
                                                                                                                                        Print                               10
Highlights
                    Appendices
                                                       Appendix A: Additional Information...........................................................12
                                                        Background ...........................................................................................12
                                                        Objective, Scope, and Methodology.......................................................13
                         Click on the appendix title    Prior Audit Coverage..............................................................................14
                                                       Appendix B: Management’s Comments....................................................15
Table of Contents




                            to the right to navigate
                            to the section content.
Findings
Recommendations
Appendices




                    Competition Advocate
                    Report Number SM-AR-14-008
                                                                                                                                          Print                    11
Highlights          Appendix A:                  Background
                    Additional Information       The Postal Service established the advocate on January 28, 2011, to promote competition in Postal Service contracting as a result
                                                 of an OIG audit,12 which found the Postal Service could improve its noncompetitive purchasing policy. The vice president, Supply
                                                 Management, assigned these duties to the manager, Supply Chain Management Strategies. The Postal Service appointed the
                                                 current advocate on July 30, 2012. As in other federal agencies, the advocate promotes competition throughout the purchasing
                                                 process and challenges barriers to competition by helping purchase teams develop ways to obtain best value13 in contracting. The
                                                 advocate developed tools and processes for senior management and contracting officials that encourage competition, such as an
                                                 advocate website and a report identifying contracts that will expire within 9 months. The advocate also issues an annual report on
Table of Contents




                                                 the extent of competition in Supply Management.

                                                 Though advocates at other federal agencies are required to approve large noncompetitive purchases, the Postal Service advocate
                                                 is an advisor with no final approval authority over purchasing. From October 1, 2012, to December 31, 2013, there were
                                                 1,182 noncompetitive awards comprising $522,801,089 in spending. Of these, 74 contracts (6 percent) exceeded $1 million and
                                                 totaled $416,835,371 in spending.

                                                 When market conditions warrant a noncompetitive strategy for a purchase exceeding $1 million, the advocate must independently
                                                 review the purchase. Separate NPRs are not required for indefinite-quantity contract14 delivery orders or contract options because
                                                 the value of these contractual actions is in the NPR for the original contract award. The requesting program office or purchase
                                                 team develops an NPR, which must include its purpose and rationale, as well as market research and cost-estimate information.
                                                 The CO considers the NPR and then sends it to the advocate. The advocate reviews the NPR and provides feedback to the CO on
Findings




                                                 the rationale behind awarding the opportunity noncompetitively and may concur with the purchase method or suggest actions to
                                                 promote competing the contract. A CO is required to consider the advocate’s review as part of the evaluation and recommendation
                                                 for the purchase method but is not required to document this consideration in his or her recommendation. If the purchase is
                                                 within the CO’s authority, the CO may then approve the NPR. If the estimated award amount exceeds the CO’s authority, the CO
                                                 forwards the purchase method recommendation to the appropriate higher authority for approval. Approvers then consider the CO’s
                                                 recommendation and approve the purchase method.
Recommendations
Appendices




                                                 12	 U.S. Postal Service Purchasing Policies (Report Number CA-AR-10-005, dated September 20, 2010).
                                                 13	 Best value is the basis of all Postal Service sourcing decisions and is determined by analyzing a contract solicitation’s evaluation factors along with a price analysis.
                                                 14	 A contract that provides for an indefinite quantity of specific supplies or services to be delivered during the contract period to designated locations when ordered.
                    Competition Advocate
                    Report Number SM-AR-14-008
                                                                                                                                                                             Print                                               12
Highlights                                       Objective, Scope, and Methodology
                                                 Our objective was to evaluate the impact of the advocate in promoting contract competition. To accomplish our objective we:

                                                 ■■ Queried the Enterprise Data Warehouse (EDW)15 to obtain all noncompetitive contractual actions for the period
                                                    January 28, 2011, to December 31, 2013, to look for trends in noncompetitive awards.

                                                 ■■ Reviewed advocate reviews of NPRs and supporting documentation for all 74 noncompetitive contractual actions greater than
                                                    $1 million for the period October 1, 2012, to December 31, 2013, totaling $416,835,371.
Table of Contents




                                                 ■■ Interviewed Supply Management personnel, including current and previous advocates, regarding creation of the position, use
                                                    of the advocate’s reports, vision for the position when created, and the evolution of that vision. We also interviewed COs to
                                                    determine why they did not submit NPRs to the advocate or address the advocate’s comments.

                                                 We conducted this performance audit from November 2013 through August 2014, in accordance with generally accepted
                                                 government auditing standards and included such tests of internal controls as we considered necessary under the circumstances.
                                                 Those standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
                                                 basis for our findings and conclusions based on our audit objective. We believe that the evidence obtained provides a reasonable
                                                 basis for our findings and conclusions based on our audit objective. We discussed our observations and conclusions with
                                                 management on June 26, 2014, and included their comments where appropriate.
Findings




                                                 We assessed the reliability of noncompetitive contractual actions data by reviewing and comparing existing contract information
                                                 we extracted from the EDW to contract documents in the Contract Authoring and Management System.16 We determined that the
                                                 data were sufficiently reliable for the purposes of this report.
Recommendations
Appendices




                                                 15	 A single repository for managing all Postal Service data assets.
                                                 16	 A contract writing tool that facilitates the solicitation, award, and storage of various contracts.
                    Competition Advocate
                    Report Number SM-AR-14-008
                                                                                                                                                           Print                13
Highlights                                       Prior Audit Coverage
                                                                                                  Final Report        Monetary Impact
                                                 Report Title                Report Number            Date              (in millions)
                                                 Noncompetitive                 SM-AR-13-004          9/25/2013              $210,563,133
                                                 Purchasing Practices
                                                 Report Results: Contracting officials did not provide documentation to support price
                                                 or cost reasonableness and justifications for awarding noncompetitive purchases for
                                                 21 of 56 purchases (38 percent) valued at $37,064,806. Employees did not maintain
                                                 sufficient documentation to support price and cost analyses, were unaware of
Table of Contents




                                                 policy, did not explore all alternatives practicable in their justifications not to compete
                                                 purchases, and did not always obtain required contract documents from international
                                                 suppliers due to cultural and language barriers. Further, instructions on emergency
                                                 noncompetitive contracts did not include clear guidelines for contract documentation
                                                 requirements. We recommended that management instruct employees to include
                                                 required documentation in contract files, reiterate contracting policy, promote
                                                 increased competition, clarify guidance on emergency noncompetitive contracts, and
                                                 explore opportunities for reducing cultural and language barriers with international
                                                 suppliers. Management agreed with most of the findings and recommendations, but
                                                 disagreed with five of the contracts because they were emergency contracts and the
                                                 documentation was in the file at the time of our audit. Management also disagreed
                                                 with the recommendation to revise the policy for emergency noncompetitive contracts
                                                 because the requirements for timeframes and responsibilities were already included.
                                                 Enterprise Technology          SM-AR-13-003          7/18/2013              $77,221,508
                                                 Services Program
Findings




                                                 Report Results: The Postal Service did not have a system to track and measure
                                                 competition and could improve controls over awarding task orders and associated
                                                 modifications that were not further competed. We recommended management track
                                                 opportunities to increase competition, ensure awards not competed have justifications,
                                                 and update guidelines for requiring management-level review and approval of
                                                 justifications to include advocate reviews of delivery orders and modifications.
                                                 Management agreed with the findings and three of four recommendations.
                                                 Management disagreed with the recommendation to require advocate review of
                                                 delivery orders and modifications to competitive contracts because those actions are
                                                 considered competitive as well, so they do not require a review by the competition
Recommendations




                                                 advocate.
Appendices




                    Competition Advocate
                    Report Number SM-AR-14-008
                                                                                                                                               Print   14
Highlights          Appendix B:
                    Management’s Comments
Table of Contents
Findings
Recommendations
Appendices




                    Competition Advocate
                    Report Number SM-AR-14-008
                                                 Print   15
                     Appendices   Recommendations   Findings   Table of Contents   Highlights




 Competition Advocate
 Report Number SM-AR-14-008
Print
16
Highlights
Table of Contents
Findings




                                                    Contact us via our Hotline and FOIA forms, follow us on social
                                                 networks, or call our Hotline at 1-888-877-7644 to report fraud, waste
                                                                        or abuse. Stay informed.
Recommendations




                                                                       1735 North Lynn Street
                                                                      Arlington, VA 22209-2020
                                                                            (703) 248-2100
Appendices




                    Competition Advocate
                    Report Number SM-AR-14-008
                                                                                                                          Print   17
